r:
\

IN THE
SUPREME COURT OF THE UNITED STATES

JACQUERE DORAN - PETITIONER

VS.

UNITED STATES OF AMERICA - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

JACQUERE DORAN
Inmate Number: #77521-097
Federal Correctional Institution
P.O. Box 800
Herlong, California 96113

FILED
JAN 1 9 2021
OFFICE OF THE Cl FRK

L-Supremecourt hr

PRO-SE PETITIONER

RECEIVED
JAN 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTION PRESENTED

Did the District Court err in treating Mr. Doran’s prior California conviction for sale
of marijuana as a felony conviction and using it to enhance his base offense level pursuant to
Sentencing Guidelines § 2K2.1(a)(2)?

11

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

m

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTIONAL STATEMENT

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING WRIT

8

I.

THE DISTRICT COURT ERRED IN APPLYING AN
ENHANCED BASE OFFENSE LEVEL FOR TWO PRIOR
FELONY CONVICTIONS FOR A CRIME OF VIOLENCE
OR A CONTROLLED SUBSTANCE OFFENSE WHEN
ONE OF THE OFFENSES WAS A MISDEMEANOR

8
27

CONCLUSION

APPENDIX A

Opinion of the United States court of appeals

APPENDIX B

Minute Order of Sacramento Superior Court

IV

TABLE OF AUTHORITIES
CASES:
Calder v. Bull, 3 U.S. 386 (1798)..............................................
Custis v. United States, 511 U.S. 485 (1994)............................
Daniels v. United States, 532 U.S. 374 (2001)..........................
McNeill v. United States, 563 U.S. 816 (2011)..........................
United States v. Rodriguez, 553 U.S. 377 (2008)......................
Arellano Hernandez v. Lynch, 831 F.3d 1127 (9th Cir. 2016)..
Hirman v. United States, 613 F.3d 773 (8th Cir. 2010)............
People v. Smit, 234 Cal.Rptr.3d 554 (Cal. Ct. App. 2018)........
United States v. Diaz, 838 F.3d 968 (9th Cir. 2016)..................
United States v. Martinez-Cortez, 354 F.3d 830 (8th Cir. 2004)
United States v. McChristian, 47 F.3d 1499 (9th Cir. 1995) ...
United States v. Norwood, 733 Fed. App’x 387 (9th Cir. 2018)
United States v. Oetken, 241 F.3d 1057 (8th Cir. 2001)............
United States v. Santillan, 944 F.3d 731 (8th Cir. 2019)..........
United States v. Yepez, 704 F.3d 1087 (9th Cir. 2012)..............
STATUTES:
18U.S.C. §922 (g)..........................
18 U.S.C. § 924(e)..........................
21 U.S.C. § 841................................
21 U.S.C. § 851................................
28 U.S.C. § 1254(1)........................
28 U.S.C. § 1291..............................
Cal. Health & Safety Code § 11359 .
Cal. Health & Safety Code § 11361.8
Cal. Penal Code § 422(a)................

Page
21
22, 23
22, 23
19, 20
21,22
25
8,9
5
.. 10,11
18, 19,21
24
14
. 16,17
9, 10, 11
14

2
.... 19,21
8, 10, 11, 13
9
2
2
4, 5, 8, 22, 24
5,6
4

v

SENTENCING GUIDELINES
Sentencing Guidelines § 2K2.1(a)(2).................................. 4, 6, 11, 13, 15, 16, 17, 24
15
Sentencing Guidelines § 2K2.1(a)(4)(A)............................
4
Sentencing Guidelines § 3E1.1............................................
18
Sentencing Guidelines § 4A 1.1(d)......................................
17
Sentencing Guidelines § 4B1.1............................................
6,9
Sentencing Guidelines § 4B1.2............................................
15
Sentencing Guidelines, App’x C, Amdt. 630 (Nov. 1, 2001)

vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Mr. Doran respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
The opinion of the United Stated court of appeals appears at Appendix A to the
petition and is unpublished.

1

JURISDICTIONAL STATEMENT
The Honorable Stephen N. Limbaugh, Jr., United States District Judge
for the Eastern District of Missouri, presided at the hearing.
The government invoked the jurisdiction of the District Court pursuant
tol8U.S.C. §922 (g).
The District Court clerk entered judgment on the docket on October 3,
2019. Mr. Doran filed a timely notice of appeal on October 9, 2019. Mr. Doran
invoked the jurisdiction of the Appellate Court pursuant to 28 U.S.C. § 1291.
The Appellate Court clerk entered judgment on the docket on
November 2, 2020. Mr. Doran invokes the jurisdiction of this Court pursuant to
28 U.S.C. § 1254(1).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the United States Constitution states, in
relevant parts, that “[n]o person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a Grand
Jury.. .nor shall any person be subject for the same offence to be twice put into
jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor deprived of life, liberty, or property, without due
process of law. . .”

3

STATEMENT OF THE CASE
On March 23, 2018, police conducted a traffic stop and found Mr. Doran
in possession of a handgun. Presentence Investigation Report (“PSR”),
DCD 53, at pp. 4-5.1 On May 2, 2018, the government filed a one-count
indictment alleging that on April 8, 2018, Doran had unlawfully possessed a
firearm while having been previously convicted of a felony. Indictment,
DCD 2. On April 4, 2019, Mr. Doran entered a plea of guilty to the indictment.
Guilty Plea Agreement, DCD 38 and 39.
At the time of the federal offense conduct, Doran had two prior
California convictions for threatening crime with intent to terrorize in 2012, a
violation of Cal. Penal Code § 422(a) (2011); and possession of marijuana for
sale in 2015, a violation of Cal. Health & Safety Code § 11359 (2015). PSR,
DCD 53, at pp. 12, 14. The PSR applied Sentencing Guidelines § 2K2.1(a)(2),
which provides for an enhanced base offense level of 24 if the defendant
committed any part of the instant offense subsequent to sustaining at least two
felony convictions of either a crime of violence or a controlled substance
offense. PSR, DCD 53, at p. 6; Sentencing Guidelines § 2K2.1(a)(2) 2018).

'“DCD” denotes the District Court’s Docket, which is followed by the docket reference
number.
4

Reduced by three levels for acceptance of responsibility pursuant to Sentencing
Guidelines § 3E 1.1, the total offense level was 21. PSR at p. 6. This offense
level yielded an advisory guidelines sentencing range of 77 to 96 months. PSR,
DCD 53, at pp. 14, 20.
In 2016, California voters enacted Proposition 64, the Control, Regulate,
and Tax Adult Use of Marijuana Act. People v. Smit, 234 Cal.Rptr.3d 554, 555
(Cal. Ct. App. 2018). Proposition 64 “legalized marijuana use and reduced
penalties for a number of marijuana-related offenses from felonies to
misdemeanors,” including possession of marijuana for sale under Cal. Health &
Safety Code § 11359. Id. The proposition also provided a procedure by which a
defendant who had completed his sentence for a conviction under § 11359
could petition the court of conviction “to have the conviction dismissed and
sealed because the prior conviction is now legally invalid or redesignated as a
misdemeanor or infraction in accordance with” § 11359, among other statutes,
as amended by the proposition. Cal. Health & Safety Code § 11361.8(e). If a
defendant satisfies the criteria of subsection (e), “the court shall redesignate the
conviction as a misdemeanor or infraction or dismiss and seal the conviction as
legally invalid.” Cal. Health & Safety Code § 11361.8(f).
In February 2017, Doran, proceeding under the name Jacare J. Gorman,
5

filed a petition to redesignate his marijuana conviction pursuant to Cal. Health
& Safety Code § 11361.8. People v. Gorman, No. 15F00530 (Sacramento Sup.
Ct. March 24, 2017) (Appendix B). In a minute order, the court granted the
petition, redesignated the conviction as a misdemeanor, imposed a sentence of
time served, and terminated Doran’s probation. Id.
In light of the redesignation of Doran’s marijuana conviction as a
misdemeanor, he objected to the PSR finding that it qualified as a prior felony
conviction of a controlled substance offense under Sentencing Guidelines
§ 2K2.1(a)(2). Def. Obj. to PSR, DCD 46, 47. He further objected that his prior
threat conviction did not qualify as a crime of violence under Sentencing
Guidelines § 4B1.2(a). Id.
At the sentencing hearing, the District Court overruled Doran’s
objections and adopted the factual findings and guidelines calculations of the
PSR. Sent. Tr., DCD 76, at pp. 5-7. The District Court sentenced Doran to the
top of the guidelines range, 96 months of imprisonment, and three years of
supervised release. Id. at p. 21.
The District Court clerk entered judgment on the docket on October 3,
2019. Judgment, DCD 60. Doran filed a timely notice of appeal on October 9,
2019. DCD 63.
6

On March 10, 2020, Doran, through counsel, filed an appellate brief with
United States Court of Appeals for the Eighth Circuit. Case No. 19-3222.
The Eighth Circuit affirmed Doran’s conviction and sentence on
November 2, 2020. (Appendix A).

7

REASONS FOR GRANTING THE PETITION
1.

THE DISTRICT COURT ERRED IN APPLYING AN
ENHANCED BASE OFFENSE LEVEL FOR TWO PRIOR
FELONY CONVICTIONS FOR A CRIME OF VIOLENCE OR
A CONTROLLED SUBSTANCE OFFENSE WHEN ONE OF
THE OFFENSES WAS A MISDEMEANOR.
At the time he committed the instant offense, and when he was sentenced

for it, Doran had a misdemeanor conviction for sale of marijuana that was
punishable by imprisonment of not more than six months or a fine, pursuant to
Cal. Penal Code § 11359(b). The PSR found that Doran’s prior conviction for
sale of marijuana was a felony conviction. PSR, DCD 53, at pp. 6, 14. Over
Doran’s objection, the District Court adopted the finding of the PSR, even
though the state of California had redesignated the offense as a misdemeanor in
2017, prior to the offense conduct and sentencing in this case. The District
Court erred in treating this offense as a felony conviction.
The District Court relied on Hirman v. United States, 613 F.3d 773 (8th
Cir. 2010). Hirman pleaded guilty to one count of manufacturing marijuana
plants, a violation of 21 U.S.C. § 841(a)(1)(B). Id. at 775. The sentencing court
found that Hirman was a career offender based on prior Minnesota convictions
for third degree assault and making terrorist threats. Id. The Minnesota courts
had stayed imposition of both sentences pending successful completion of
8

probation. Id. After his federal sentencing, Hirman sought and obtained early
termination of his probation for both offenses, which had the effect of changing
his felony convictions to misdemeanors under Minnesota law. Id. He then filed
a motion to vacate, set aside, or correct his federal sentence, arguing that
because his felony convictions were changed to misdemeanors, he no longer
qualified as a career offender. Id.
The Eighth Circuit affirmed the sentencing court’s denial of relief. It
noted that Hirman’s prior Minnesota convictions had not been vacated, but
were merely deemed to be misdemeanors under Minnesota law. Id. at 776. The
Eighth Circuit concluded, “[t]he fact remains that Hirman was convicted of
crimes that were ‘punishable by. . .imprisonment for a term exceeding one
year,’ U.S.S.G. § 4B1.2.” Id. It noted that the focus of the federal definition of
crime of violence is on the sentence that may be imposed, not on whether the
state labels the crime a misdemeanor.” Id. At Doran’s sentencing hearing, the
District Court found Hirman “pretty dispositive” and overruled his objection.
Sent. Tr., DCD 76, at pp. 5-6.
After Doran’s sentencing, the Eighth Circuit decided United States v.
Santillan, 944 F.3d 731 (8th Cir. 2019); the case involves an issue related to
the one in this appeal. Santillan pleaded guilty to conspiracy to distribute
9

methamphetamine, a violation of 21 U.S.C. § 841(a)(1) and (b)(1)(A). Id. at
732. His sentence was enhanced pursuant to 21 U.S.C. § 851 on the basis of a
California prior conviction for possession of marijuana for sale. Id. After he
committed the federal offense and was arrested for it, but before being indicted,
Santillan sought relief in a California court based on Proposition 64, which
reclassified possession of marijuana for sale as a misdemeanor for all purposes.
Id. The California court redesignated Santillan’s offense as a misdemeanor
prior to his federal sentencing. Id. The district court treated the redesignated
offense as a felony conviction for purposes of the § 851 enhancement, and the
Eighth Circuit affirmed. Id. at 732, 734.
In Santillan, the Eighth Circuit adopted the reasoning of the Ninth
Circuit in United States v. Diaz, 838 F.3d 968 (9th Cir. 2016), which also
involved a § 841 enhancement. “In Diaz, the Ninth Circuit held that
Proposition 47, which similarly reclassified certain felony convictions as
misdemeanors, did ‘not change the historical fact that [the defendant] violated
§841 after two or more prior convictions for a felony drug offense [had]
become final.’” Id. at 733 (quoting Diaz, 838 F.3d at 971). Because the inquiry
under § 841 is “backward-looking” and requires only that the prior conviction
be “final,” the “question posed by § 841(b)(1)(A) is whether the defendant was
10

previously convicted, not the particulars of how state law later might have
permitted relief from the defendant’s state conviction.” Id. at 733 (quoting
Diaz, 838 F.3d at 973). The Eighth Circuit noted that it applies the same
“historical fact” approach, and a prior conviction qualifies as a “felony drug
offense” under § 841(b)(1)(A) if it was punishable as a felony at the time of
conviction. Id. (citations omitted).
The District Court erred in relying on Hirman, and the Eighth Circuit
should not have affirmed based on the holdings in Santillan and Diaz. First,
this trio of cases is distinguishable. In each case, the defendant’s prior
conviction was not reclassified as a misdemeanor until after his federal offense
conduct, and in two of the cases, until after the federal sentence was imposed.
Additionally, each case involved a § 841 enhancement, not an enhancement
under the Sentencing Guidelines. Hirman and Santillan are not dispositive
authority as applied to the facts of Doran’s case, and Diaz is not dispositive
authority as applied to the facts of Doran’s case, and Diaz is not persuasive.
A sentencing court should consider the status of the defendant’s prior
conviction as of the time of federal offense conduct or the federal sentencing
proceeding when determining whether a prior state conviction is a
misdemeanor or a felony. This approach is consistent with § 2K2.1(a)(2) and
11

other Guidelines, the structure of which demonstrate that the Sentencing
Commission intended courts to consider the sentence actually imposed by state
courts for state criminal conduct when calculating a defendant’s criminal
history score and to defer to state lawmakers’ assessment of the seriousness of
the state criminal conduct. Such an approach promotes judicial economy and
efficiency, and it satisfies basic fairness concerns by allowing a defendant to
know the sentencing consequences of a federal offense before he commits it.
A. Hirman, San tillan, and Diaz Are Factually Distinguishable
and Involved Enhanced Sentences under Section 841, Not the
Sentencing Guidelines.
Hirman, Santillan, and Diaz are distinguishable from Doran’s case
because of the timing of the redesignation of the prior state offense. In Hirman
and Diaz, the state court redesignated the prior conviction as a misdemeanor
after the federal offense conduct and after the federal sentencing. In Santillan,
the state court reduced the offense to a misdemeanor after the federal offense
conduct but before the federal sentencing. Thus, in two of the three cases, at the
time the federal sentence was imposed, the defendant had a prior felony
conviction that was only later redesignated as a misdemeanor. In all three
cases, the defendant had a prior felony conviction when he committed the
federal offense; Doran did not. When Doran’s federal sentence was imposed,
12

his offense had already been redesignated as a misdemeanor. This factual
distinction is crucial, as explained below.
Hirman, Diaz, and Santillan each involved a violation of 21 U.S.C. §
841(b)(1)(A). That statute provides for an enhancement if a person “commits” a
violation of the statute after a prior conviction for a serious drug felony “has
become final.” The plain language of the statute - “commits,” in the present
tense - directs the sentencing court to look to the defendant’s status at the time
he commits the § 841 violation.
The applicable statutory text in Doran’s case is Sentencing Guidelines §
2K2.1(a)(2), which provides for an enhanced base offense level “if the
defendant committed any part of the instant offense subsequent to sustaining at
least two felony convictions of either a crime of violence or a controlled
substance offense.” Like § 841(b)(1)(A), the plain language of the guideline
directs the sentencing court to look to the defendant’s status at the time he
committed the federal offense. When Doran committed the instant offense, he
did not have two prior felony convictions, as his California marijuana
conviction had already been redesignated as a misdemeanor.
Other decisions of the Ninth Circuit concerning Sentencing Guidelines
provisions - as opposed to Diaz, which involved § 841(b)(1)(A) - also look to
13

the status of the prior conviction as of the time the defendant committed the
federal offense. “[W]hen calculating criminal history points, the sentencing
court ‘looks to a defendant’s status at the time he commits the federal crime.’”
United States v. Norwood, 733 Fed. App’x 387, 389 (9th Cir. 2018) (quoting
United States v. Yepez, 704 F.3d 1087, 1090 (9th Cir. 2012) (en banc) (per
curiam)).
Hirman, Santillan, and Diaz are distinguishable because of the timing of
the redesignated of the state offense vis-a-vis the federal offense conduct and
sentencing. However, the results in all three cases are also consistent with the
plain language of § 841, which applies the enhancement if the defendant has
prior felony convictions at the time he commits the federal offense. Sentencing
Guidelines § 2K2.1(a)(2) contains the same language, and thus also applies if
the defendant had two prior felony convictions when he committed the federal
offense. Doran did not.
In affirming Doran’s sentence, however, the Eighth Circuit found the
Santillan case indistinguishable from Doran’s case. As that court noted, “[a]nd,
nothing about our prior cases suggests the precise timing of the post-conviction
changes to state law drove our analysis. Rather, we described our analysis as
involving a ‘backward looking’ question of ‘federal, not state, law’ that asks
14

whether ‘a prior conviction.. .was punishable as a felony at the time of the
conviction.’” United States v. Doran, Case No. 19-3222 (8th Cir. Nov. 2,
2020), at * 5 (quoting Santillan, 944 F.3dat733).
The eighth Circuit’s decision not only upends the history and purpose of
§ 2K2.1, but would also lead to unwarranted sentencing disparities and would
promote judicial inefficiency and confusion.
B. The History of § 2K2.1 and Other Guidelines Provisions
Shows that a Sentencing Court Should Determine the Status
of a Prior State Offense as of the Time the Defendant
Commits the Federal Offense or Is Sentenced Federally.
I. History of Amendments to § 2K2.1
Prior to 2011, § 2K2.1(a)(2) applied if the defendant “had at least two
prior felony convictions of either a crime of violence or a controlled substance
offense.” Sentencing Guidelines § 2K2.1(a)(2) (2000). The Sentencing
Commission amended the guideline “to resolve a circuit conflict regarding
whether a crime committed after the commission of the instant offense and
before sentencing for the instant offense is counted as a prior felony conviction
for purposes of determining the defendant’s base offense level.” Sentencing
Guidelines, App’x C, Arndt. 630 (Nov. 1, 2001). The amendment “adopt[ed]
the minority view that an offense committed after the commission of any part

15

of the offense cannot be counted as a prior felony conviction” and clarified
“that the instant offense must have been committed subsequent to sustaining
the prior felony conviction. In so doing, this amendment adopt[ed] a rule that is
consistent with the requirements concerning the use of prior convictions under
§§ 4B1.1 ... and 4B1.2.”
The Eighth Circuit was among the circuits that had expressed the
“minority” view, as stated by the Commission, which in the amendment cited
United States v. Oetken, 241 F.3d 1057 (8th Cir. 2001). In Oetken, the Eighth
Circuit construed the former version of § 2K2.1(a)(4)(A), which provided for
an enhancement if the defendant “had one prior felony conviction.” The panel
found that the use of the past-tense “had” refers to convictions that a defendant
possessed at some point prior to sentencing. “To satisfy the ‘had’ language, a
sentencing judge must therefore look to some point in the past and determine
whether the defendant had a ‘prior’ conviction at that time. We believe that the
most obvious time to look to would be the time that the defendant committed
the offense of conviction.” Id. at 1059. “The fact that Mr. Oetken was
convicted of a crime of violence after he committed the instant offense ought
not to transform his possession of a firearm into a more serious offense
retroactively,” the Eighth Circuit reasoned. Id.
16

Doran’s situation is similar. The fact that he once had a felony
conviction that was redesignated as a misdemeanor before his federal offense
conduct should not retroactively render his federal offense more serious. The
amendment to § 2K2.1 and the reasoning of Oetken support that the sentencing
court should have considered whether Doran’s prior conviction was a felony or
a misdemeanor as of the date of the federal offense conduct.
Noticeably, the Eighth Circuit failed to address this argument when it
affirmed Doran’s sentence.
ii. The suggested Approach is Consistent with Other
Criminal History Guidelines and Thus Promotes
Consistency and Avoids Unwarranted Sentence
Disparity.
Construing § 2K2.1(a)(2) to apply to the status of the defendant’s prior
convictions at the time he commits the federal offense or is sentenced for it is
also consistent with the career offender guideline, which like § 2K2.1(a)(2)
provides for an enhancement on the basis of prior felony convictions. The
commentary to § 4B1.1 implements a departure provision for state
misdemeanors as follows:
In a case in which one or both of defendant’s “two prior felony
convictions” is based on an offense that was classified as a
misdemeanor at the time of sentencing for the instant federal
offense, application of the career offender guideline may result
17

in a guideline range that substantially overstates the seriousness
of the defendant’s criminal history or substantially overstates
the seriousness of the instant offense. In such a case, a downward
departure may be warranted.. .
Sentencing Guidelines § 4B1.1, cmt n. 4 (emphasis added). This provision
clearly expresses the Sentencing Commission’s view that the failure of a
federal sentencing court to defer to a state court’s redesignation of an offense
can result in an overly harsh sentence, as in Doran’s case.
It would be anomalous for sentencing courts to reduce a sentencing
range under the career offender Guideline based on an offense that was
classified as a misdemeanor at the time of federal sentencing, but to enhance a
sentence under § 2K2.1(a)(2) based on the very same prior conviction. Such a
divergence would increase unwarranted sentence disparity, whereas giving
effect to the status of a prior conviction as of the date of the federal offense or
federal sentencing would represent consistent treatment of the same prior
conviction under different Guidelines, thus reducing disparity.
Considering the status of the prior conviction as of the time of the federal
offense conduct is also consistent with § 4A 1.1(d), which provides for an
enhancement “if the defendant committed the instant offense while under any
criminal justice sentence.” The Eighth Circuit has found that the enhancement

18

was correctly applied when a defendant’s prior convictions were modified after
he committed his federal offense but before he was sentenced for it. United
States v. Martinez-Cortez, 354 F.3d 830, 832 (8th Cir. 2004).
In Martinez-Cortez, the panel looked to the status of the prior
convictions as of the date of the federal offense conduct. Id. It concluded that
the “timing and purpose of’ the state sentence reductions required the
sentencing court to find that the defendant properly received criminal history
points under § 4Al.l(d). Id. Unlike Martinez-Cortez, Doran did not petition to
have his prior conviction redesignated as a misdemeanor only after he was
charged with the instant offense. Doran successfully petitioned the state of
California to redesignate his conviction in 2017, well before his federal
criminal conduct in 2018.
In addressing a similar issue to Doran’s, this Court also looked to the
status of the prior conviction at the time the defendant committed the federal
offense, in McNeill v. United States, 563 U.S. 816 (2011). McNeill considered
whether a prior conviction qualified as a “serious drug offense” under
18 U.S.C. § 924(e); to qualify, a “maximum term of imprisonment of ten years
or more” must be prescribed by law for the offense. Id. at 825 (quoting
§ 924(e)(2)(A)(ii)). This Court held that the “maximum term of imprisonment”
19

for a defendant’s prior state drug offense is the maximum sentence applicable
to the offense when the defendant was convicted of it. Id. This Court
emphasized the status of the prior conviction as of the date of the instant
offense conduct:
McNeill cannot explain why two defendants who violated § 922(g) on
the same day and who had identical criminal histories - down to the
dates on which they committed and were sentenced for their prior
offenses - should receive dramatically different federal sentences
solely because one’s § 922(g) sentencing happened to occur after the
state legislature amended the punishment for one of the shared prior
offenses. In Contrast, the interpretations we adopt permits a
defendant to know even before he violates § 922(g) whether ACCA
would apply.
563 U.S. at 823 (emphasis added). As this Court observed, the appropriate date
of focus is the date on which a defendant violates a federal statute. A defendant
in Doran’s position would reasonably think that, because the state court had
already redesignated his prior offense as a misdemeanor by the time he
committed a federal offense, he would not face a federal sentence enhancement
for having a prior felony conviction.
Crucially, the particular change in state law at issue in McNeill was
prospectively only, not retroactive as is the case with Doran. The McNeill
Court explicitly left open the issue posed by Doran’s case, noting: “this case
does not concern a situation in which a State subsequently lowers the
20

maximum penalty applicable to an offense and makes that reduction available
to defendant’s previously convicted and sentenced for that offense... We do
not address whether or under what circumstances a federal court could consider
the effect of that state action.” Id. at 825 nl.
On direct appeal, the Eighth Circuit noted that “[t]he Court made this
comment for the express purpose of limiting its holding. It did not otherwise
suggest how such a reclassification should be treated.” United States v. Doran,
Case No. 19-3222 (8th Cir. Nov. 2, 2020), at * 5.
Doran’s appellate brief, however, suggested an alternative approach to
retroactive reclassified offenses.2
The alternative approach - determining the status of a prior conviction
as of the time of federal sentencing - would also be consistent with other
Guidelines. “The structure of the Guidelines evidences an intent on the part of
the Sentencing Commission to look to the sentences actually imposed by state
courts for state criminal convictions when calculating a federal defendant’s
criminal history score.” Martinez-Cortez, 354 F.3d at 833 (Lay, J., dissenting).

2In addition to the notice concerns mentioned in McNeill, the suggested approach would
also avoid potential ex post facto issues. See Calder v. Bull, 3 U.S. 386, 390 (1798) (Chase, J.)
(identifying as an ex post facto law “[e]very law that changes the punishment, and inflicts a
greater punishment, than the law annexed to the crime, when committed”).
21

“In assessing the length of a federal sentence, therefore, the sentencing court
looks only at the prior state sentences as they exist at the time of sentencing.”
Id. at 834. Doing so respects “fundamental principles of federalism and
deference owed by federal courts to state courts in processing their own
criminal cases.” Id. at 833. The approach of Hirman, Santillan, and Diaz, by
contrast, fails to respect these fundamental principles of federalism and
deference and conflicts with the approach of the other cited Guidelines
provisions. In fact, the rule the District Court applied could also apply to
federal convictions, if a court declined to give effect to a sentence commutation
that reduced a federal felony to a federal misdemeanor, for example, the
Sentencing Guidelines would trump the pardon power and nullify the
executive’s act of clemency.
This Court has recognized the importance of deference to state
lawmakers’ judgment in measuring “the seriousness of state offenses involving
the manufacture, distribution, or possession of illegal drugs.” United States v.
Rodriguez, 553 U.S. 377, 388 (2008). By choosing to rely on the maximum
term of imprisonment prescribed by state law as the measure of the seriousness
of an offense under 18 U.S.C. § 924(e)(2)(A)(ii), “Congress presumably
thought - not without reason - that if state lawmakers provide that a crime is
22

punishable by 10 years’ imprisonment, the lawmakers must regard the crime as
‘serious,’ and Congress chose to defer to the state lawmakers’ judgment.” Id.
The converse is also true. The retroactive reduction of an offense from a
felony to a misdemeanor punishable by no more than six months of
imprisonment (see Cal. Penal Code § 11359(b)) demonstrates that the state
does not view the offense as serious, certainly not serious enough to warrant a
significant sentence enhancement under federal law. This Court should
reiterate the appropriateness of deferring to state lawmakers’ judgment; in
Doran’s case, that means deferring to California’s redesignation of Doran’s
marijuana conviction as a misdemeanor.
C. Considering the Status of the Prior Conviction as of the Time
of the Federal Offense Conduct or the Federal Sentencing
Promotes Judicial Economy and Efficiency.
Considerations of judicial economy support determining the status of a
defendant’s prior convictions as they are at the time of federal offense conduct
or federal sentencing. In Daniels v. United States, 532 U.S. 374, 378 (2001),
this Court elaborated on its decision in Custis v. United States, 511 U.S. 485
(1994), which held that “with the sole exception of convictions obtained in
violation of the right to counsel, Custis had no right under the ACCA or the
Constitution ‘to collaterally attack prior convictions’ in the course of his
23

federal sentencing proceeding.” Id. at 378 (quoting Custis, 511 U.S. at 490-97).
This Court explained that the decision was based on considerations of “ease of
administration and the interest in promoting the finality of judgments.” Id. at
378. The Daniels Court explained:
resolving non-Gideon-type constitutional attacks on prior convictions
“would require sentencing courts to rummage through frequently
nonexistent or difficult to obtain state court transcripts or records.’
. . . [and] allowing collateral attacks would “inevitably delay and impair
the orderly administration of justice” and “deprive the state-court
judgment of its normal force and effect.”
Id. (quoting Custis, 511 U.S. at 496-97).
The Ninth Circuit has also described the government’s interest in finality
and in “excluding collateral challenges to old convictions,” which include the
“expense of keeping court records indefinitely, concerns about evidence being
lost over time, and ‘thorny procedural difficulties’ at sentencing hearings.”
United States v. McChristian, 47 F.3d 1499, 1503 (9th Cir. 1995).
Importantly, Doran did not collaterally attack his prior conviction during
his federal sentencing, he had already successfully petitioned the state of
California to have his prior conviction redesignated as a misdemeanor before
he committed the instant offense, and before he was sentenced for it; no
collateral attack was necessary. The approach he urges the Court to adopt does

24

not implicate any of the finality concerns expressed in Custis and Daniels.
When a state redesignates a prior conviction as a misdemeanor before the
federal sentence is imposed, deferring to the redesignation does no implicate
those government interests in the finality of sentences, nor does it require
federal courts to reopen sentences years after the fact due to subsequent
changes in state law. Indeed, it may be procedurally more difficult to reach
back and determine whether a redesignated sentence was originally for a felony
(particularly in the case of a “wobbler” statute such as § 11359), than to
establish that the state conviction is a misdemeanor at the time of the federal
sentencing. Doran’s approach is thus best suited to promoting judicial economy
and efficiency.
Determining the status of the defendant’s prior conviction as of the time
of federal offense conduct or the federal sentencing is consistent with §
2K2.1(a)(2) and other Guidelines. It demonstrates appropriate deference to
state lawmakers’ assessment of the seriousness of an offense, a concern the
Supreme Court has emphasized in other contexts, such an approach also

3A “wobbler” is an offense that can be punished as either a felony or misdemeanor
offense. Arellano Hernandez v. Lynch, 831 F.3d 1127, 1132 (9th Cir. 2016). a “wobbler” offense
is presumptively a felony and remains a felony unless the sentencing court subsequently reduces
it to a misdemeanor. Id. (citation omitted).
25

reduces unwarranted sentence disparity, avoids the disparate application of
criminal history Guidelines, promotes judicial economy and efficiency, and
satisfies basic fairness concerns by allowing a defendant to know the
sentencing consequences of a federal offense before he commits it. The district
Court erred in relying on Hirman, and this Court should reject any reliance on
the “backward-looking” approach of Santillan and Diaz.

26

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

1/ISl3.es I

v j ^ cd V’-jtr t

Jacquere Doran #77521-097

Date

27

